                                  Federal Register / Vol. 68, No. 172 / Friday, September 5, 2003 / Notices                                            52783

     not create or confer any rights for or on               address provided below by no later than               in the last several years being medical
     any person and does not operate to bind                 5 p.m. on November 4, 2003.                           schools. Many of these organizations
     FDA or the public. An alternative                       ADDRESSES: Please mail or deliver your                have instituted health care compliance
     approach may be used if such approach                   written comments, recommendations                     programs in their hospitals, and an
     satisfies the requirements of the                       and suggestions to the following                      increasing number have begun
     applicable statutes and regulations.                    address: Department of Health and                     developing compliance programs for
                                                             Human Services, Office of Inspector                   sponsored research.
     II. Comments                                                                                                     As with OIG’s earlier CPGs, the
                                                             General, Attention: OIG–13–CPG, Room
        Interested persons may submit to the                 5527, Cohen Building, 330                             purpose of this guidance will be to
     Division of Dockets Management (see                     Independence Avenue, SW.,                             assist organizations in preventing fraud
     ADDRESSES) written or electronic                        Washington, DC 20201.                                 and abuse and in better complying with
     comments on the draft guidance. Submit                    We do not accept comments by                        Federal requirements. We anticipate
     a single copy of electronic comments to                 facsimile (FAX) transmission. In                      that the guidance for recipients of NIH
     http://www.fda.gov/dockets/ecomments                    commenting, please refer to the file code             research grants will contain seven
     or two copies of any mailed comments,                   OIG–13–CPG. Comments received                         elements that we consider necessary for
     except that individuals may submit one                  timely will be available for public                   a comprehensive compliance program.
     copy. The draft guidance and the                        inspection as they are received,                      These seven elements include:
     comments submitted to the docket may                    generally beginning approximately 3                      • Implementing written policies and
     be seen in the Division of Dockets                      weeks after publication of a document,                procedures that foster an institutional
     Management between 9 a.m. and 4 p.m.,                   in Room 5527 of the Cohen Building at                 commitment to stewardship and
     Monday through Friday.                                  330 Independence Avenue, SW.,                         compliance;
                                                             Washington, DC 20201 on Monday                           • Designating a compliance officer
     III. Electronic Access
                                                             through Friday of each week from 8 a.m.               and compliance committee;
        Persons with access to the Internet
                                                             to 4:30 p.m.                                             • Conducting effective training and
     may obtain the draft guidance at http:/                                                                       education;
     /www.fda.gov/cder/guidance/index.htm,                   FOR FURTHER INFORMATION CONTACT:                         • Developing effective lines of
     or http://www.fda.gov/ohrms/dockets/                    Richard Stern, Office of Counsel to the               communication;
     default.htm.                                            Inspector General, (202) 619–0335; or                    • Conducting internal monitoring and
                                                             Joel Schaer, Office of Counsel to the                 auditing;
       Dated: August 27, 2003.                               Inspector General, (202) 619–0089.                       • Enforcing standards through well-
     Jeffrey Shuren,
                                                             SUPPLEMENTARY INFORMATION:                            publicized disciplinary guidelines; and
     Assistant Commissioner for Policy.                                                                               • Responding promptly to detected
     [FR Doc. 03–22576 Filed 9–3–03; 10:00 am]               1. Past CPGs
                                                                                                                   problems, undertaking corrective action,
     BILLING CODE 4160–01–S                                    The development of compliance                       and reporting to the appropriate Federal
                                                             program guidances is a major initiative               agency.
                                                             of the OIG in its effort to assist                       We are also considering an eighth
     DEPARTMENT OF HEALTH AND                                participants in Department programs in                element, ‘‘Defining roles and
     HUMAN SERVICES                                          preventing and reducing fraud and                     responsibilities and assigning oversight
                                                             abuse and in complying with Federal                   responsibility,’’ that would include a
     Office of Inspector General                             program requirements. Over the past                   discussion of the importance of
     Solicitation of Information and                         several years, the OIG has developed                  effectively delegating oversight
     Recommendations for Developing                          and issued 11 compliance program                      authority.
                                                             guidances. The suggestions contained in                  We would appreciate specific
     Compliance Program Guidance for
                                                             the guidances are not mandatory, nor do               comments, recommendations and
     Recipients of NIH Research Grants
                                                             they represent an exclusive discussion                suggestions on aspects of these
     AGENCY: Office of Inspector General 
                   of the advisable elements of a                        elements.
     (OIG), HHS.
                                            compliance program.                                      We are also interested in comments
     ACTION: Notice.
                                                                                              on (a) the scope of the guidance, and
                                                             2. Developing Draft CPG for NIH                       particularly the types of activities, such
     SUMMARY:   This Federal Register notice                 Research Grant Recipients                             as grant administration, that should be
     seeks the input and recommendations of                     Through this Federal Register notice,              subject to the CPG; and (b) the risk areas
     interested parties as the OIG develops                  the OIG is seeking input from interested              for recipients of NIH research grants.
     compliance program guidance (CPG) for                   parties as the OIG considers the                      Based on our fraud investigations at
     recipients of extramural research grant                 development of a CPG for recipients of                research institutions, we have identified
     and cooperative agreement (grant)                       extramural research grant awards from                 internal control deficiencies that may
     awards from the National Institutes of                  NIH. Under its governing statute, the                 warrant attention in a CPG. OIG would
     Health (NIH). The OIG is soliciting                     OIG’s oversight responsibility extends to             also appreciate suggestions from the
     comments, recommendations and other                     all programs and operations of the                    public on risk areas. Risk areas we have
     suggestions from interested parties and                 Department, and the OIG promotes                      tentatively identified include: (i) The
     organizations on the value and                          compliance efforts by all recipients of               proper allocation of charges to grant
     fundamental principles of compliance                    Department funds. One community of                    projects; (ii) ‘‘time and effort’’ reporting,
     programs for colleges, universities, and                paramount importance to the                           including an accurate reporting of the
     other recipients of NIH grants, along                   Government’s public health efforts is                 commitment of effort by researchers;
     with the specific elements that these                   the colleges, universities, and other                 and (iii) use of program income. We
     grant recipients should consider when                   recipients of public funds committed to               would also be interested in comments
     developing and implementing an                          furthering biomedical research. These                 on each of these areas.
     effective compliance program.                           organizations are largely non-profit and                 We will consider all comments,
     DATES: To assure consideration,                         educational, with over 50 percent of                  recommendations and suggestions
     comments must be delivered to the                       recipients of NIH research grant awards               received within the time frame


VerDate Jan<31>2003   16:38 Sep 04, 2003   Jkt 200001   PO 00000   Frm 00048   Fmt 4703   Sfmt 4703   E:\FR\FM\05SEN1.SGM   05SEN1
     52784                        Federal Register / Vol. 68, No. 172 / Friday, September 5, 2003 / Notices

     indicated above. Detailed justifications                INFORMATION CONTACT. In addition, sign                DEPARTMENT OF THE INTERIOR
     and empirical data supporting any                       and oral interpretation, as well as a
     suggestions would be appreciated. We                    listening device, can be made available               Fish and Wildlife Service
     also request that any comments,                         at the meeting if requested 10 calendar
     recommendations or suggestions be                       days before the meeting. Arrangements                 Endangered and Threatened Wildlife
     submitted in a format that addresses the                may be made by contacting the person                  and Plants; 90-Day Finding on Petition
     topics outlined above in a concise                      listed under the heading FOR FURTHER                  To Delist Astragalus magdalenae var.
     manner, rather than in the form of                      INFORMATION CONTACT.                                  peirsonii (Peirson’s milk-vetch)
     comprehensive draft guidance that                         Issued in Arlington, Virginia, on                   AGENCY: Fish and Wildlife Service,
     mirrors previous CPGs.                                  September 2, 2003.                                    Interior.

       Dated: August 13, 2003.                               Tom Blank,                                            ACTION: Notice of 90-day petition 

     Dara Corrigan,                                          Assistant Administrator for Transportation            finding. 

     Acting Principal Deputy Inspector General.              Security Policy.
                                                                                                                   SUMMARY: We, the U.S. Fish and
     [FR Doc. 03–22626 Filed 9–4–03; 8:45 am]                [FR Doc. 03–22666 Filed 9–4–03; 8:45 am]
                                                                                                                   Wildlife Service, make a 90-day finding
                                                             BILLING CODE 4910–62–P
     BILLING CODE 4152–01–P                                                                                        for a petition to remove Astragalus
                                                                                                                   magdalenae var. peirsonii (Peirson’s
                                                                                                                   milk-vetch) from the Federal List of
     DEPARTMENT OF HOMELAND                                  DEPARTMENT OF HOUSING AND                             Threatened and Endangered Wildlife
     SECURITY                                                URBAN DEVELOPMENT                                     and Plants pursuant to the Endangered
                                                                                                                   Species Act (ESA) (16 U.S.C. 1531 et
     Transportation Security Administration                  [Docket No. FR–4809–N–36]                             seq.). We find that the petition presents
                                                                                                                   substantial information indicating that
     Aviation Security Advisory Committee                    Federal Property Suitable as Facilities               delisting this plant may be warranted.
     Meeting                                                 To Assist the Homeless                                We are initiating a status review to
     AGENCY: Transportation Security                         AGENCY: Office of the Assistant                       determine if delisting this species is
     Administration (TSA), DHS.                              Secretary for Community Planning and                  warranted.
     ACTION: Notice of meeting.                              Development, HUD.                                     DATES: This finding was made on
                                                             ACTION: Notice.                                       August 29, 2003. To be considered in
     SUMMARY: This notice announces a
                                                                                                                   the 12-month finding on this petition,
     meeting of the Aviation Security                        SUMMARY: This Notice identifies                       comments and information should be
     Advisory Committee (ASAC).                              unutilized, underutilized, excess, and                submitted to us by November 4, 2003.
     DATE: The meeting will take place on                    surplus Federal property reviewed by                  ADDRESSES: Comments, material,
     October 1, 2003, from 9 a.m. to 1 p.m.                  HUD for suitability for possible use to               information, or questions concerning
     ADDRESSES: The meeting will be held at                  assist the homeless.                                  this petition and finding should be sent
     the Crowne Plaza Washington National                    EFFECTIVE DATE: September 5, 2003.                    to the Field Supervisor, Carlsbad Fish
     Hotel, 1489 Jefferson Davis Highway,                                                                          and Wildlife Office, U.S. Fish and
                                                             FOR FURTHER INFORMATION CONTACT:
     Arlington, VA 22202. Telephone: (703)                                                                         Wildlife Service, 6010 Hidden Valley
     416–1600.                                               Mark Johnston, Department of Housing
                                                             and Urban Development, Room 7262,                     Road, Carlsbad, CA 92009. The petition
     FOR FURTHER INFORMATION CONTACT:                                                                              and supporting information are
                                                             451 Seventh Street, SW., Washington,
     Joseph Corrao, Office of Transportation                 DC 20410; telephone (202) 708–1234;                   available for public inspection by
     Security Policy, TSA Headquarters                       TTY number for the hearing- and                       appointment during normal business
     (Room 1146N), 701 S. 12th Street,                       speech-impaired (202) 708–2565, (these                hours at the above address.
     Arlington, VA, 22202; telephone 571–                    telephone numbers are not toll-free), or              FOR FURTHER INFORMATION CONTACT: Jim
     227–2980, e-mail                                        call the toll-free Title V information line           Bartel, Field Supervisor, Carlsbad Fish
     joseph.corrao@dhs.gov.                                  at 1–800–927–7588.                                    and Wildlife Office, at the above address
     SUPPLEMENTARY INFORMATION: This                         SUPPLEMENTARY INFORMATION: In                         (telephone: 760–431–9440).
     meeting is announced pursuant to                        accordance with the December 12, 1988                 SUPPLEMENTARY INFORMATION:
     section 10(a)(2) of the Federal Advisory                court order in National Coalition for the
     Committee Act, as amended (5 U.S.C.                                                                           Background
                                                             Homeless v. Veterans Administration,
     App.). The agenda for the meeting will                  No. 88–2503–OG (D.D.C.), HUD                             Section 4(b)(3)(A) of the Endangered
     include the report of the air cargo                     publishes a Notice, on a weekly basis,                Species Act of 1973 (ESA) (16 U.S.C.
     transportation security working groups,                 identifying unutilized, underutilized,                1531 et seq.) requires that we make a
     and the report of the general aviation                  excess and surplus Federal buildings                  finding on whether a petition to list,
     airport security guidelines working                     and real property that HUD has                        delist, or reclassify a species presents
     group. This meeting, from 9 a.m. to 1                   reviewed for suitability for use to assist            substantial scientific or commercial
     p.m., is open to the public but                         the homeless. Today’s Notice is for the               information indicating that the
     attendance is limited to space available.               purpose of announcing that no                         petitioned action may be warranted. To
        Members of the public must make                      additional properties have been                       the maximum extent practicable, this
     advance arrangements to present oral                    determined suitable or unsuitable this                finding is to be made within 90 days of
     statements at the open ASAC meeting.                    week.                                                 receipt of the petition, and the finding
     Written statements may be presented to                                                                        is to be published promptly in the
     the committee by providing copies of                      Dated: August 28, 2003.                             Federal Register. If we find substantial
     them to the Chair prior to or at the                    Mark R. Johnston,                                     information present, we are required to
     meeting. Anyone in need of assistance                   Deputy Director, Office of Special Needs              promptly commence a review of the
     or a reasonable accommodation for the                   Assistance Programs.                                  status of the species (50 CFR 424.14).
     meeting, should contact the person                      [FR Doc. 03–22460 Filed 9–4–03; 8:45 am]              ‘‘Substantial information’’ is defined in
     listed under the heading FOR FURTHER                    BILLING CODE 4210–29–M                                50 CFR 424.14(b) as ‘‘that amount of


VerDate Jan<31>2003   16:38 Sep 04, 2003   Jkt 200001   PO 00000   Frm 00049   Fmt 4703   Sfmt 4703   E:\FR\FM\05SEN1.SGM   05SEN1
